EDUCATIONAL BROADCASTING CORPORATION
           New York, New York



        Financial and Compliance Audit
                       of
                 Indirect Costs
              For the Years Ended
            June 30, 2000 and 2001




                                M.D. Oppenheim & Company, P.C.
                                      Certified Public Accountants
                                  485 U.S. Highway 1, Building C
                                   Iselin, New Jersey 08830-4100
                 EDUCATIONAL BROADCASTING CORPORATION

                                   Table of Contents

                                                                       Page

Acronyms                                                                1
Explanation of Acronym                                                  1

Section I – Introduction and Audit Results                              2
 Background                                                             3
 Objective and Scope of Audit                                           3
 Summary of Audit Results                                               4
 Exit Conference                                                        6

Section II – Findings and Recommendations:                              7
 Independent Auditors' Report on Compliance and Internal Control        8
 Findings and Recommendations on Internal Control                      10

Section III – Financial Schedules:                                     12
 Independent Auditors' Report                                          13
 Schedule A – Schedule of Over/(Under) Recovered Indirect Costs on
  National Science Foundation Awards                                   15
 Schedules B-1 to B-2 – Schedules of Indirect Cost Calculation         16
 Schedule C – Schedule of Auditors’ Adjustments and Eliminations       29
 Notes to Financial Schedules                                          30

Section IV – Supplementary Information:                                31
 Independent Auditors’ Report on Supplementary Information             32
 Schedules D-1 and D-2 – Detailed Schedule of Over/(Under) Recovered
  Indirect Costs by NSF Awards                                         33

Section V – Awardee's Response                                         35
           EDUCATIONAL BROADCASTING CORPORATION

                                 Acronyms


Acronym   Explanation of Acronym

AICPA     American Institute of Certified Public Accountants

 DACS     NSF Division of Acquisition and Cost Support

 DGA      NSF Division of Grants and Agreements

 EBC      Educational Broadcasting Corporation

 FCTR     Federal Cash Transactions Report

MTDC      Modified Total Direct Costs

 NSF      National Science Foundation

 OIG      Office of Inspector General

 OMB      U.S. Office of Management and Budget




                                                               1
          SECTION I

INTRODUCTION AND AUDIT RESULTS




                                 2
                               SECTION I -
                     INTRODUCTION AND AUDIT RESULTS

                                       BACKGROUND

   The Educational Broadcasting Corporation (EBC), a not-for-profit corporation organized in
1962, produces and broadcasts public educational television programs. Its mission is to deliver
programs and services that make a positive difference in the lives of its viewers. Channel 13
(WNET) and other public television stations throughout the United States of America broadcast
EBC’s programs, which are produced individually and in collaboration with other entities.

    EBC generates approximately $171.5 million of annual revenues mainly from private
contributions. Of this total, Federal financial assistance approximates $4.1 million, or about 2
percent. The National Science Foundation (NSF) provides the most significant portion of the
Federal financial assistance to EBC, approximately 39 percent on an annual basis, and is its
cognizant Federal audit agency. EBC had two ongoing NSF awards with total budgets of $4
million and required cost sharing of $7 million.

                           OBJECTIVE AND SCOPE OF AUDIT

    At the request of the NSF Office of the Inspector General (OIG), M. D. Oppenheim &
Company, P.C. conducted a financial and compliance audit of the indirect cost proposals
prepared by EBC for the years ended June 30, 2000 and 2001 to determine final indirect cost
rates for those years. During the period of our audit there were two NSF awards that included
indirect costs, which were specified in the award letter/budget. On the first award (ESI-
9909404) indirect costs were based on a predetermined rate; on the second award (ESI-9705292)
indirect costs were based on a maximum provisional rate. Our audit objectives were: (1) to
determine whether EBC complied with Federal requirements in computing its indirect costs
proposals; (2) to determine whether EBC over or under-recovered indirect costs on each NSF
award active during the audit period, based upon the audit determined indirect cost rates; and (3)
to evaluate the adequacy of EBC’s internal controls to administer, account for, and monitor
indirect cost charges to Federal awards.

   To accomplish the objectives of the audit, we:

   •   Conducted an on-site audit survey with sufficient observations, interviews and
       examinations of documents to make an initial determination as to whether predetermined
       rates were based on allowable indirect costs and whether controls to administer, account
       for, and monitor indirect costs are adequate to ensure compliance with Federal cost
       principles and administrative requirements.

   •   Prepared an audit planning document for OIG review and approval. The planning
       document included a description of EBC’s organizational structure and the process used
       to administer, account for, and monitor indirect cost charges to Federally sponsored
       awards. As part of the planning process we performed an assessment of audit risk and
       obtained an understanding of EBC’s control environment.



   •   Prepared an internal control audit planning document for OIG review and approval. The
       internal control planning document included the proposed audit programs/procedures for

                                                                                                3
       testing the significant internal controls necessary to accurately administer, account for,
       and charge indirect cost charges to Federally sponsored awards. As part of the internal
       control review, we evaluated EBC’s control environment, conducted a risk assessment,
       and analyzed information and communication, and monitoring and control activities.

   •   Prepared a substantive audit testing planning document for OIG review and approval.
       The substantive planning document stated the preliminary results of the internal control
       phase of the audit, including any findings and recommendations and the proposed audit
       program, which included the tests on compliance with applicable laws and regulations
       and substantive testing procedures to be applied to the indirect cost pools and the direct
       cost base.

   •   Performed testing procedures to determine whether the indirect cost proposals and the
       resultant indirect cost rates comply with OMB Circulars A-110, Uniform Administrative
       Requirements for Grants and Agreements with Institutions of Higher Education,
       Hospitals and Other Nonprofit Organizations, and A-122, Cost Principles for Non-Profit
       Organizations.

    We conducted our audit in accordance with AICPA auditing standards generally accepted in
the United States of America, the Comptroller General’s, Government Auditing Standards and
included tests of the accounting records and other auditing procedures that we considered
necessary to fully address the audit objectives.

                              SUMMARY OF AUDIT RESULTS

        We audited EBC’s indirect cost rate proposals for FY 2000 and 2001. For these two
years, we found that EBC did not account for costs by Federal award as mandated by Federal
requirements for the two ongoing NSF awards with total budgets of $4 million, and did not have
separate accounts to track the required $7 million of cost sharing on these awards. In addition,
EBC had significant two internal controls deficiencies regarding the allowability of costs and the
valuation of bartered goods and services. We determined that the commingling of all Federal
and cost-sharing commitments in one project account was a material weakness in the EBC
internal control structure, and the internal control deficiencies for identifying allowable costs and
valuing bartered goods and services constituted a reportable condition.

   •   EBC accounts for costs by project not by Federal award as is required. It combines
       Federal and non-Federal expenditures, in the same general ledger accounts without
       segregating charges for Federal awards in separate cost centers. In adition, EBC
       erroneously reported that its accounting system did separately identify the receipt and
       expenditure of funds for each grant and contract. Further, EBC’s accounting system
       commingles cost sharing in the same general ledger accounts that it uses to track Federal
       funds; and

   •   EBC included unallowable lobbying costs ($32,000 in FY 2000 and $33,800 in FY 2001)
       as part of its claimed indirect costs. Further, EBC claimed costs for bartered goods and
       services without any valuation policy, which resulted in unsupported airfare charges
       ($2,099 in FY 2000 and $7,303 in FY 2001) in the indirect cost pools.




                                                                                                   4
    As a result of commingling costs funded by NSF with those funded by other sources, NSF is
unable to monitor the use of its $4 million of funds and $7 million of cost-sharing, and NSF is
unable to ensure its funds actually benefited NSF’s awards, a concern that is compounded by
NSF’s inability to rely on EBC’s erroneous written statements that its accounting meets Federal
requirements. During the audit period EBC claimed $2 million of costs but did not incur any
cost sharing. EBC plans to charge its $7 million of cost-sharing commitments to the same
project accounts used to track the Federal funds. EBC indicated that it did not separately account
for the costs incurred with NSF funds because it thought that accounting for all project costs in
the same account was adequate for Federal awards. In addition, EBC slightly overstated its
indirect cost rate because it did not have adequate written policies and procedures to identify and
segregate unallowable costs or to value bartered goods and services.

    We recommend that the directors of NSF’s Division of Acquisition and Cost Support
(DACS) and the Division of Grants and Agreements (DGA) require EBC to: 1) implement an
accounting system that tracks reimbursable and cost sharing expenses separately by Federal
award; and 2) develop and implement policies and procedures to separately identify unallowable
costs and value bartered goods and services.

   The Awardee concurred with the findings and will implement appropriate corrective action.




                                                                                                 5
                                     Exit Conference

    An exit conference was held on March 3, 2003 at the Auditee’s office located at 450 West
  rd
33 Street, New York, New York. The findings on internal control, the other matter, along with
the adjustments and eliminations related to the indirect cost proposals were discussed by the
following individuals.

For Educational Broadcasting Corporation:

   XXXXXXX XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
   XXXXXXXXXXXXXXXXXXX
   XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX

For M.D. Oppenheim & Company, P.C.:

   XXXXXXXXXXXXXXXXXXXXXX




                                                                                           6
         SECTION II

FINDINGS AND RECOMMENDATIONS




                               7
National Science Foundation
Office of Inspector General
4201 Wilson Boulevard
Arlington, Virginia 22230

              INDEPENDENT AUDITORS' REPORT ON COMPLIANCE
                        AND INTERNAL CONTROL
We have audited the summary schedule of over/(under) recovered indirect costs (Schedule A)
and the schedules of indirect/direct costs (B-1 to B-2), which summarize the indirect cost
proposals prepared by the Educational Broadcasting Corporation for the years ended June 30,
2000 and 2001, and have issued our report thereon dated March 3, 2003. We conducted our
audit in accordance with auditing standards generally accepted in the United States of America,
the standards applicable to financial audits contained in Government Auditing Standards issued
by the Comptroller General of the United States and the National Science Foundation Audit
Guide (September 1996).

Compliance
As part of obtaining reasonable assurance about whether the Educational Broadcasting
Corporation’s financial schedules are free of material misstatement, we performed tests of its
compliance with certain provisions of laws, regulations, and policies, noncompliance with which
could have a direct and material effect on the determination of the financial schedules’ amounts.
However, providing an opinion on compliance with those provisions was not an objective of our
audit and, accordingly, we do not express such an opinion. The results of our tests disclosed the
instances of noncompliance, as reported in the accompanying adjustments and eliminations noted
in Schedule C, that are required to be reported under Government Auditing Standards and the
National Science Foundation Audit Guide.

Internal Control Over Financial Reporting
In planning and performing our audit, we considered the Educational Broadcasting Corporation’s
internal control over financial reporting in order to determine our auditing procedures for the
purposes of expressing our opinion on the financial schedules and not to provide assurance on
the internal control over financial reporting. However, we noted certain matters involving
internal control over financial reporting and its operation that we consider to be reportable
conditions. Reportable conditions involve matters coming to our attention relating to significant
deficiencies in the design or operation of the internal control over financial reporting that, in our
judgment, could adversely affect the Educational Broadcasting Corporation’s ability to record,
process, summarize and report financial data consistent with the assertions of management in the
financial schedules. The reportable conditions noted are described in the accompanying
Findings and Recommendations on Internal Control.


                                                                                                   8
National Science Foundation
Office of Inspector General
Arlington, Virginia


Internal Control Over Financial Reporting (Cont.)
A material weakness is a condition in which the design or operation of one or more of the
internal control components does not reduce to a relatively low level the risk that misstatements
in amounts that would be material in relation to the financial schedules being audited may occur
and not be detected within a timely period by employees in the normal course of performing their
assigned functions. Our consideration of the internal control over financial reporting would not
necessarily disclose all matters in the internal control that might be reportable conditions and,
accordingly, would not necessarily disclose all reportable conditions that are also considered to
be material weaknesses. However, we believe that the above reportable condition, described in
the finding titled, Accounting System Does Not Track Costs by Federal Award, is a material
weakness.

This report is intended solely for the information and use of the Educational Broadcasting
Corporation and the National Science Foundation and is not intended to be and should not be
used by anyone other than these specified parties.




March 3, 2003




                                                                                               9
                         EDUCATIONAL BROADCASTING CORPORATION
                          Findings and Recommendations on Internal Control
                              For the years ended June 30, 2000 and 2001


    We audited EBC’s indirect cost rate proposals for FY 2000 and 2001; and although we found
that the audited rates were only slightly lower than the proposed rates1 we did find serious
internal control weaknesses in EBC’s accounting for Federal funds. Specifically, we found that
EBC did not account for costs by Federal award as mandated by Federal requirements for the
two ongoing NSF awards with total budgets of $4 million, and did not have separate accounts to
track the required $7 million of cost sharing on these two awards. In addition we found two
internal controls deficiencies regarding the allowability of costs and the valuation of bartered
goods and services.
                                       Material Weakness

1. Accounting System Does Not Track Costs by Federal Award

    Effective internal controls over Federal funds include a financial management system that
accounts for costs by award. However, in its general ledger EBC does not record expenses by
award but only by project. For example, EBC records costs to develop television programming
for a series such as Cyberchase in one project account, but cannot identify specific costs paid
with Federal funds in that account. In addition, EBC erroneously reported to NSF in writing on
June 2, 1997 and June 7, 2001 that its system did identify the receipt and expenditure of funds
for each grant and contract. As a result of the commingling, EBC is unable to monitor its use of
NSF funds or to identify the costs that it claims were provided to the project in order to meet its
cost-sharing commitment. Therefore, NSF is unable to ensure that costs charged to NSF
benefited NSF or that EBC had adequately identified the required cost-sharing funds. EBC
combines funds for its projects in single accounts because project accounting is all that is
necessary for its internal purposes, and its managers erroneously believed that this method of
accounting was also adequate to account for Federal funds.

Recommendation

   We recommend that the directors of NSF’s Division of Acquisition and Cost Support
(DACS) and the Division of Grants and Agreements (DGA) require EBC to implement an
accounting system that tracks reimbursable and cost sharing expenses separately by Federal
award.

Auditee’s Response

    We concur that the general ledger is by project, however, our OMB A-133 audit has
never disclosed material weaknesses. In the future, we will segregate the Federal costs for
the project.

Auditors’ Comment to Auditee’s Response

       No further comment deemed necessary.


1
    See Schedule A attached to this report.
                                                                                                10
                                      Reportable Condition

2. Unallowable and Unsupported Costs

     EBC included unallowable lobbying costs ($32,000 in FY 2000 and $33,800 in FY 2001) in
its indirect cost pools. Specifically, in FY 2000 EBC contracted with a law firm for “government
relations” services, including lobbying. In FY 2001 EBC again contracted with a lobbying
organization for similar services.

    EBC also included airfare charges in the indirect cost pools ($2,099 in FY 2000 and $7,303
in FY 2001) without adequate support. Specifically, EBC made a barter arrangement with a
major airline for 48 domestic round-trip airline tickets and 15 international round-trip tickets,
valued at $170,000 per the agreement (all tickets were coach class). In exchange, the airline
received credit for helping underwrite a television program EBC produced. EBC did not have a
valuation policy for such barter arrangements and arbitrarily expensed the individual tickets at
$2,099 each. Later the parties revised the agreement to include additional domestic airfares and
fewer international airfares, thus revising the per-ticket charge to $1,217. All the airfares under
the agreement were utilized by June 30, 2001, and EBC recognized revenue and charged expense
as each ticket was used. However, EBC was unable to demonstrate that the amount expensed
approximated the fair market value of airline coach tickets used.

    As a result of including unallowable and unsupported costs in its indirect cost pool, EBC
slightly overstated its indirect cost rates. However, no cost recovery is warranted because in
accordance with EBC’s practice on NSF awards to claim direct costs up to the grant ceilings,
EBC did not claim any indirect costs during the audit period. EBC included unallowable and
unsupported costs in its indirect cost pool because it did not have adequate written policies and
procedures to identify and segregate unallowable cost or to value bartered goods and services.

Recommendation

    We recommend that the directors of NSF’s Division of Acquisition and Cost Support
(DACS) and Division of Grants and Agreement (DGA) require EBC to develop and implement
policies and procedures to separately identify unallowable costs and to value bartered goods and
services.

Auditee’s Response

     We have a policy for valuing bartered goods and services. The case cited was for a batch of
airline tickets that we utilized a computed average value. The lobbying costs were inadvertently
claimed. In the future corrective measures will be implemented.

Auditors’ Comment to Auditee’s Response

   No further comment deemed necessary.




                                                                                                11
    SECTION III

FINANCIAL SCHEDULES




                      12
National Science Foundation
Office of Inspector General
4201 Wilson Boulevard
Arlington, Virginia 22230

                           INDEPENDENT AUDITORS' REPORT

We have audited the indirect cost proposals, the Educational Broadcasting Corporation has
proposed as applicable to the National Science Foundation and other Federal awards for the
years ended June 30, 2000 and 2001. These indirect cost proposals, as presented in the schedules
of indirect/direct costs (Schedules B-1 to B-2) and the schedule of over/(under) recovered
indirect costs (Schedule A), are the responsibility of the Educational Broadcasting Corporation's
management. Our responsibility is to express an opinion on Schedules A, B-1 to B-2 based on
our audit.

We conducted our audit in accordance with auditing standards generally accepted in the United
States of America, Government Auditing Standards issued by the Comptroller General of the
United States, and the National Science Foundation Audit Guide (September 1996). Those
standards and the National Science Foundation Audit Guide require that we plan and perform the
audit to obtain reasonable assurance about whether the financial schedules are free of material
misstatement. An audit includes examining, on a test basis, evidence supporting the amounts
and disclosures in the financial schedules. An audit also includes assessing the accounting
principles used and significant estimates made by management, as well as evaluating the overall
financial schedule presentation. We believe our audit provides a reasonable basis for our
opinion.

The accompanying financial schedules were prepared for the purpose of complying with the
requirements of the National Science Foundation Audit Guide as described in Note 1, and are not
intended to be a complete presentation of financial position in conformity with accounting
principles generally accepted in the United States of America.

In our opinion, the financial schedules referred to above present fairly, in all material respects,
the indirect cost proposals (Schedules B-1 and B-2) and the resultant over/(under) recovered
indirect costs (Schedule A) for the years ended June 30, 2000 and 2001 on the basis of
accounting described in Note 1.




                                                                                                13
National Science Foundation
Office of Inspector General
Arlington, Virginia


In accordance with Government Auditing Standards, we have also issued our report dated March
3, 2003 on our consideration of the Educational Broadcasting Corporation's internal control over
financial reporting and on our tests of its compliance with laws and regulations. That report is an
integral part of an audit performed in accordance with Government Auditing Standards and
should be read in conjunction with this report in considering the results of our audit.

Schedule C contains indirect costs in the amount of $75,000 that are reductions to the indirect
costs proposed for the years ended June 30, 2000 and 2001. The National Science Foundation
will make the final determination, as to whether such costs are allowable or unallowable. The
ultimate outcome of this determination cannot presently be determined.

This report is intended solely for the information and use of the Educational Broadcasting
Corporation and the National Science Foundation and is not intended to be and should not be
used by anyone other than these specified parties.




March 3, 2003




                                                                                                14
                                               EDUCATIONAL BROADCASTING CORPORATION
                              Schedule of Over/(Under) Recovered Indirect Costs on National Science Foundation Awards
                                                    For the years ended June 30, 2000 and 2001


                                                 Indirect Cost Approved in Award          Indirect Cost Rates Proposed/Audited                  Indirect Costs
                                                                                           Year Proposed Audited Schedule            Claimed To              Over/(Under) Comment/
     NSF Award Number         Award Period             Cost Method             Rate       Ended     Rate      Rate    Reference         NSF      Per Audit Recovered        Notes

     ESI-9705292           06/15/97-11/30/01 Maximum Provisional            14.40%       06/30/00 XXXX 13.72%             B-1            $      -0-   $      -0-   $        -0-   (C)
                                              (MTDC) (B)                                 06/30/01 XXXX 15.38%             B-2                   -0-       4,729        (4,729)

                                                                                                             Subtotal                    $      -0-   $   4,729 $      (4,729)

     ESI-9909404           02/15/00-07/31/02 Predetermined Fixed Rate       14.40%       06/30/00 XXXX 13.72%             B-1            $      -0-   $ 66,366 $ (66,366)
                                              (MTDC) (B)                                 06/30/01 XXXX 15.38%             B-2                   -0-    183,987 (183,987)

                                                                                                             Subtotal                    $      -0-   $ 250,353 $ (250,353)

                                                                                                               Total                     $      -0-   $ 255,082 $ (255,082)
                                                                                                                                             (A)
     Comments/Notes:
     MTDC = Modified Total Direct Costs. (Total direct program costs less equipment and participant support costs).
     (A) EBC has not claimed indirect costs to NSF as of June 30, 2001.
     (B) The MTDC allows the first $25,000 of each subaward.
     (C) There were no direct costs incurred by EBC for the year ended June 30, 2000, therefore there would not be any indirect costs.




                                                                                                                                                                                        Schedule A
     See accompanying notes to these financial schedules.
15
                                                                             Schedule B-1

                   EDUCATIONAL BROADCASTING CORPORATION
                              Indirect Cost Calculation
                          For the year ended June 30, 2000


                                                                    ($ In Thousands)
                                                                        Auditors'
                                                                      Adjustments
                                              Schedule     Proposed        and       Allowable
                                              Reference      Costs    Eliminations     Costs

Direct cost                                     B-1a      $ XXXXX       X XX         XXXXX

Indirect cost pool:
 Executive and administrative services          B-1b      $ XXXXX      X (XX)      $ XXXXX
 Technical support services                     B-1c         XXXX                    XXXX
 Program staff administration                   B-1d         XXXX                   X XXXX

     Total indirect costs                                 $ XXXXX      X (XX)      $ XXXXX


                                                             ($ In Thousands)
Computation of indirect cost rate:                         Per EBC Per Audit

 Total indirect costs                                     $ XXXXX      $ 18,916
 Total direct costs                                        XXXXX        137,873

Computed indirect cost rate                                   XXXX        13.72%




See accompanying notes to these financial schedules.
                                                                                       16
                                                                          Schedule B-1a

                  EDUCATIONAL BROADCASTING CORPORATION
                             Schedule of Direct Costs
                         For the year ended June 30, 2000


                                                           ($ In Thousands)
                                                               Auditors'
                                                  (A)        Adjustments
                                                Proposed         And        Allowable
                  Expenses                       Costs       Eliminations     Costs

National program service                     $ XXXXX         X             $ XXXXX
 Broadcast station                             XXXXX                         XXXXX
 Educational resources center                   XXXX                          XXXX
 Management and administrative services        XXXXX                         XXXXX

    Total Expenses                            $ XXXXX       X     XX         $ 137,873




(A) XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
    XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
    XXXXXXXXXXXXXXXXXXXXXXXXXX




See accompanying notes to these financial schedules.
                                                                                    17
                                                                             Schedule B-1b

                    EDUCATIONAL BROADCASTING CORPORATION
                     Schedule of Executive and Administrative Expenses
                              For the year ended June 30, 2000


                                                          ($ In Thousands)
                                                              Auditors'
                                                  (A)       Adjustments
                                               Proposed          And           Allowable
                 Expenses                        Costs      Eliminations         Costs

Salaries, wages and benefits                   $ XXXX            X            $ XXXX
Professional services                             XXX           XXXX             XXX
Fees, dues, royalties and commissions            XXXX                          XXXXX
Production expenses                               XXX                            XXX
Database and research                            XXXX                          XXXXX
Delivery and fulfillment                           XX                             XX
Communications                                    XXX                            XXX
Travel and business expenses                      XXX             XXX            XXX
Equipment, supplies and services                 XXXX                          XXXXX
Building occupancy and related                  XXXXX                         XXXXXX
Depreciation                                    XXXXX                           XXXX
Other expenses                                    XXX                            XXX

   Total expenses                            XXXXXXX        X XXXX              $ 14,520
                                                             (Schedule C)




(A) XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX.
    XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
    XXXXXXXXXX




See accompanying notes to these financial schedules.
                                                                                       18
                                                                            Schedule B-1c

                    EDUCATIONAL BROADCASTING CORPORATION
                      Schedule of Technical Support Services Expenses
                             For the year ended June 30, 2000


                                                       ($ In Thousands)
                                              (A)            Auditors'
                                           Proposed        Adjustments       Allowable
              Expenses                       Costs       and Eliminations      Costs

Salaries, wages and benefits               $ XXXX           X               $ XXXXX
Professional services                          XX                               XX
Fees, dues, royalties and commissions         XXX                              XXX
Production expenses                           XXX                              XXX
Multimedia production expenses                 XX                               XX
Database and research                          XX                               XX
Delivery and fulfillment                       XX                               XX
Communications                                XXX                              XXX
Travel and business expenses                  XXX                              XXX
Equipment, supplies and services              XXX                              XXX
Building occupancy and related             XXXXX                             XXXXX
Depreciation                                  XXX                              XXX
Other expenses                               XXXX                             XXXX
Internal EBC manpower and facilities
  recoveries                              XXXXXX                              XXXXX

   Total expenses                         XXXXXX        X       XXX           $ 3,364




(A)    XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
       XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
       XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX




See accompanying notes to these financial schedules.
                                                                                        19
                                                                          Schedule B-1d

                    EDUCATIONAL BROADCASTING CORPORATION
                     Schedule of Program Staff Administration Expenses
                              For the year ended June 30, 2000


                                                       ($ In Thousands)
                                             (A)           Auditors'
                                          Proposed       Adjustments      Allowable
               Expenses                    Costs       and Eliminations     Costs

Salaries, wages and benefits             $   XXX           X              $    XXX
Fees, dues, royalties and commissions         XX                                XX
Database and research                         XX                                XX
Delivery and fulfillment                       X                                 X
Communications                                 X                                 X
Travel and business expenses                  XX                                XX
Equipment, supplies and services              XX                                XX
Building occupancy and related               XXX                               XXX

   Total expenses                        XXXXXX        X       XXX            $ 1,032




(A) XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
    XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
    XXXXXXXXXXXXXXXXXXXXX




See accompanying notes to these financial schedules.
                                                                                        20
                                                                              Schedule B-2

                       EDUCATIONAL BROADCASTING CORPORATION
                                  Indirect Cost Calculation
                              For the year ended June 30, 2001


                                                                    ($ In Thousands)
                                                                          Auditors'
                                         Schedule       Proposed        Adjustments     Allowable
                                         Reference        Costs      and Eliminations     Costs

Direct costs                                B-2a       $ XXXXXX           XXX           $ 148,445

Indirect cost pool:
  National program service                  B-2b         XXXX                            XXXXX
  Broadcast station                         B-2c         XXXX                            XXXXX
  Non-broadcast sales                       B-2d          XXX                              XXX
  Fundraising                               B-2e          XXX             XXX              XXX
  Technical support services                B-2f        XXXXX                            XXXXX
  Management and administrative
    services                                B-2g         XXXXX            XXX            XXXXX

     Total indirect costs                              $ XXXXX        X XXXX            $ 22,824


                                            ($ In Thousands)
Computation of indirect cost rate:        Per EBC       Per Audit

Total indirect costs                    $ XXXXX        $ 22,824
Total direct costs                        XXXXX         148,445

Computed indirect cost rate                  XXXX         15.38%




See accompanying notes to these financial schedules.
                                                                                        21
                                                                           Schedule B-2a

                   EDUCATIONAL BROADCASTING CORPORATION
                              Schedule of Direct Costs
                          For the year ended June 30, 2001


                                                       ($ In Thousands)
                                           (A)              Auditors'
                                        Proposed           Adjustments      Allowable
             Expenses                     Costs         and Eliminations      Costs

National program service               $ XXXXX              X              $ XXXXX
Broadcast station                        XXXXX                               XXXXX
Educational resource center              XXXXX                               XXXXX
Non-broadcast sales                      XXXXX                                XXXX
Fundraising                              XXXXX                                XXXX
Technical support services                 XXX                                 XXX

  Total expenses                        $ XXXXX         X       XXX          $ 148,445




(A) XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
    XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
    XXXXXXXXXXXXXXXXXXXXXXXXXXXX




See accompanying notes to these financial schedules.
                                                                                     22
                                                                            Schedule B-2b

                    EDUCATIONAL BROADCASTING CORPORATION
                      Schedule of National Program Service Expenses
                            For the year ended June 30, 2001


                                                        ($ In Thousands)
                                                (A)          Auditors'
                                             Proposed       Adjustments       Allowable
              Expenses                        Costs      and Eliminations       Costs

Administration                           $     XXX          X                $    XXX
Music services                                 XXX                                XXX
Arts and culture                               XXX                                XXX
Science, nature and features                   XXX                                XXX
News and public affairs                        XXX                                XXX

   Total expenses                         $ XXXX        X       XXX              $ 1,885




(A) XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
    XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
    XXXXXXXXXXXXXXXXXXXXXXXXXXXXX




See accompanying notes to these financial schedules.
                                                                                           23
                                                                           Schedule B-2c

                    EDUCATIONAL BROADCASTING CORPORATION
                         Schedule of Broadcast Station Expenses
                            For the year ended June 30, 2001


                                                        ($ In Thousands)
                                         (A)                Auditors'
                                      Proposed            Adjustments      Allowable
            Expenses                   Costs           and Eliminations      Costs

Administration                       $ XXX                 X               $ XXX
Unallocated occupancy                 XXXXX                                XXXXX

   Total expenses                   $ XXXXX            X       XXX          $ 2,947




(A) XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
    XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
    XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX




See accompanying notes to these financial schedules.
                                                                                       24
                                                                            Schedule B-2d

                  EDUCATIONAL BROADCASTING CORPORATION
                      Schedule of Non-Broadcast Sales Expenses
                        For the year ended December 31, 2001


                                                       ($ In Thousands)
                                              (A)            Auditors'
                                           Proposed        Adjustments        Allowable
               Expenses                     Costs        and Eliminations       Costs

Administration (rights and clearances)      $ XXX           X XXX               $ 324




(A)    XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
       XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
       XXXXXXXXXXXXXXXXXXXXXXXXXX




See accompanying notes to these financial schedules.
                                                                                        25
                                                                            Schedule B-2e

                    EDUCATIONAL BROADCASTING CORPORATION
                           Schedule of Fundraising Expenses
                           For the year ended June 30, 2001


                                                        ($ In Thousands)
                                                (A)          Auditors'
                                             Proposed      Adjustments          Allowable
                Expenses                      Costs      and Eliminations         Costs

Office of the Director:
 Director, membership and development          $ XXX        X                   $ XXX
 Governmental and external affairs               XXX        XXX                   XXX

   Total expenses                              $ XXX        XXX                   $ 746
                                                         (Schedule C)




(A) XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
    XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
    XXXXXXXXXXXXXXXXXXXXX




See accompanying notes to these financial schedules.
                                                                                      26
                                                                              Schedule B-2f

                     EDUCATIONAL BROADCASTING CORPORATION
                       Schedule of Technical Support Services Expenses
                              For the year ended June 30, 2001



                                                          ($ In Thousands)
                                                (A)            Auditors'
                                             Proposed        Adjustments         Allowable
                Expenses                      Costs        and Eliminations        Costs

Administration                               $ XXXX           X                  $ XXXX
Technical services                              XXX                                 XXX
Graphic design                                  XXX                                 XXX

   Total expenses                            $ XXXX       $       XXX              $ 3,493




(A) XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
    XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
    XXXXXXXXXXXXXXX




See accompanying notes to these financial schedules.
                                                                                        27
                                                                            Schedule B-2g

                 EDUCATIONAL BROADCASTING CORPORATION
              Schedule of Management and Administrative Services Expenses
                            For the year ended June 30, 2001


                                                       ($ In Thousands)
                                               (A)           Auditors'
                                            Proposed       Adjustments       Allowable
               Expenses                      Costs       and Eliminations      Costs

President's office                           $ XXX            X               $     XXX
Chief Financial Officer's Office               XXX                                  XXX
Law department                               XXXXX                                XXXXX
Board of Trustees                              XXX                                  XXX
Accounting operations                        XXXXX                                XXXXX
Grant and contract administration              XXX                                  XXX
Network technologies                         XXXXX            XXX                 XXXXX
Financial planning and revenue admin.        XXXXX                                XXXXX
Project management                             XXX                                  XXX
Research and information services              XXX            XXX                   XXX
Corporate affairs                            XXXXX                                XXXXX
Reference resources                            XXX                                  XXX
Other                                          XXX                                  XXX

   Total Expenses                          $ XXXXX        X XXX                   $ 13,429
                                                          (Schedule C)




(A) XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
    XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
    XXXXXXXXXXXXXXX




See accompanying notes to these financial schedules.
                                                                                        28
                                                                                 Schedule C

                  EDUCATIONAL BROADCASTING CORPORATION
                   Schedule of Auditors’ Adjustments and Eliminations
                       For the years ended June 30, 2000 and 2001

The amounts as proposed by EBC in their indirect cost proposals for the years ended
June 30, 2000 and 2001 required various adjustments and eliminations to the indirect cost
pools. These adjustments and/or eliminations are presented in Schedules B-1b and B-2e and
B-2g. Presented below are the amount of the adjustment (in thousands of dollars) and the
explanation of the adjustments and/or eliminations along with the relevant criteria.

Schedule          (*)            Category of Expense – Explanation of the         Reference
Reference        Amount                  Adjustment/Elimination                   to Criteria

   B-1b               $ 32     Professional Services – Political and                  (A)
                               legislative lobbying costs paid to an outside
                               consulting firm.

   B-1b                 2      Travel and Business Expenses – Lack of                 (B)
                               valuation of bartered airline ticket costs.

   B-2e                34      Government and External Affairs – Political            (A)
                               and legislative lobbying costs paid to an
                               outside consulting firm.

   B-2e                 1      Government and External Affairs – Lack of              (B)
                               valuation of bartered airline ticket costs.

   B-2g                 5      Network Technologies – Lack of valuation of            (B)
                               bartered airline ticket costs.

   B-2g                 1      Research and Information Services – Lack of            (B)
                               valuation of bartered airline ticket costs.


(*) $ In thousands.

(A) OMB Circular A-122. Attachment B, Section 25 specifies that when an organization
    seeks reimbursement for indirect costs, total lobbying costs shall be separately
    identified in the indirect costs proposal, and thereafter treated as unallowable activity
    costs.

(B) OMB Circular A-122, Attachment B, Section 55 specifies that travel expenses may be
    charged on an actual basis or other basis, provided the method used results in charges
    consistent with those normally allowed by the organization in its regular operations.

Auditee’s Response:



                                                                                            29
                  EDUCATIONAL BROADCASTING CORPORATION
                              Notes to Financial Schedules
                      For the years ended June 30, 2000 and 2001


1. Summary of Significant Accounting Policies:

The accompanying financial schedules have been prepared in conformity with National Science
Foundation (NSF) instructions. Schedules B-1 to B-2 have been prepared from the indirect cost
proposals prepared by the Educational Broadcasting Corporation and Schedule A, has been
prepared based upon the results of the audit of Schedules B-1 to B-2. The schedules do not
present the complete financial position of the Educational Broadcasting Corporation. In
accordance with NSF instructions, there are no schedules of financial position, statements of
activities or statements of cash flows.

2.   Income Taxes:

The Educational Broadcasting Corporation is a private nonprofit corporation. The Educational
Broadcasting Corporation is exempt from income taxes under Section 501(c)(3) of the Internal
Revenue Code. It is also exempt from State of New York income tax.




                                                                                          30
        SECTION IV

SUPPLEMENTARY INFORMATION




                            31
National Science Foundation
Office of Inspector General
4201 Wilson Boulevard
Arlington, Virginia 22230


   INDEPENDENT AUDITORS’ REPORT ON SUPPLEMENTARY INFORMATION

Our audit was conducted for the purpose of forming an opinion on the schedule of over/(under)
recovered indirect costs (Schedule A) and schedules of indirect and direct costs
(Schedules B-1 to B-2) (the basic financial schedules) of the Educational Broadcasting
Corporation for the years ended June 30, 2000 and 2001, and was made for the purpose of
forming an opinion on the basic financial schedules taken as a whole. The supplementary
information presented in Schedules D-1 and D-2 is presented for purposes of supplementary
analysis and is not a required part of the basic financial schedules. The supplementary
information has not been subjected to the auditing procedures applied in the audit of the basic
financial schedules and, accordingly, we express no opinion on it.




March 3, 2003




                                                                                            32
                                                                                 Schedule D-1

                  National Science Foundation Award Number ESI-9705292
                                         Awarded To
                   EDUCATIONAL BROADCASTING CORPORATION
                     Schedule of Over (Under) Recovered Indirect Costs
                       For the Period July 1, 1999 to June 30, 2001 (A)
                                            Interim
                                         (Unaudited)


                                                   FYE              FYE
              Cost Category                      06/30/00         06/30/01             Total

Personnel costs                                  $               $ XXXXX         $ XXXXX
Equipment
Participant support costs
Subawards
Other direct costs                                                  XXXX            XXXX

Total direct costs                                    XXX           30,745        $ 30,745
Exclusions:                                                                          (B)
  Equipment
  Participant support
  Subawards > than $25,000

Modified total direct cost base                       XXX           30,745

Final audited indirect cost rate                                     15.38%

Calculated allowable indirect costs                   XXX            4,729
Claimed indirect costs (C)                            XXX               -0-        $         -0-
                                                                                       (B)
Over/(under) recovered indirect costs             $    -0-         $ (4,729)


(A) The award period is June 15, 1997 to November 30, 2001.

(B) The total direct costs plus indirect costs totals $30,745 for the period June 15, 1997 to
    June 30, 2001, which agrees with the cumulative net disbursements reported on the
    FCTR as of the quarter ended June 30, 2001.

(C) As of June 30, 2001 no indirect costs have been claimed by EBC.



See accompanying independent auditors’ report.
                                                                                              33
                                                                                Schedule D-2

                  National Science Foundation Award Number ESI-9909404
                                        Awarded To
                   EDUCATIONAL BROADCASTING CORPORATION
                     Schedule of Over (Under) Recovered Indirect Costs
                    For the Period February 15, 2000 to June 30, 2001 (A)
                                           Interim
                                        (Unaudited)

                                                   FYE              FYE
              Cost Category                      06/30/00         06/30/01            Total

Personnel costs                               $ XXXXXX          $ XXXXX           $ XXXXX
Equipment
Participant support costs                        XXXXX             XXXXX              XXXXX
Subawards
Other direct costs                               XXXXXX            XXXXX              XXXXX

Total direct costs                                481,814         1,183,805       $ 1,665,619
Exclusions:                                                                            (B)
  Equipment
  Participant support                               1,901            12,471
  Subawards > than $25,000

Modified total direct cost base                   483,715         1,196,276

Final audited indirect cost rate                    13.72%            15.38%

Calculated allowable indirect costs                66,366           183,987
Claimed indirect costs (C)                             -0-               -0-      $           -0-
                                                                                       (B)
Over/(under) recovered indirect costs            $ (66,366)      $ (183,987)



(A) The award period is February 15, 2000 to July 31, 2002.

(B) The total direct costs plus indirect costs totals $1,665,619 for the period February 15,
    2000 to June 30, 2001, agrees with the cumulative net disbursements reported on the
    FCTR as of the quarter ended June 30, 2001.

(C) As of June 30, 2001 no indirect costs have been claimed by EBC.



See accompanying independent auditors’ report.
                                                                                         34
    SECTION V


AUDITEE’S RESPONSE




                     35
EDUCATIONAL BROADCASTING CORPORATION

 DETAILED PERSONAL IDENTIFYING INFORMATION ON
                 SCHEDULE C
                                                                      XXXXXXXXXXXXXXXXXXXXX
                                                                      XXXXXXXXXXXXXXXXXXXXX
                                                                      XXXXXXXXXXXXXXXXXXXXX
                                                                      XXXXXXXXXXXXXX




November 20, 2003


XXXXXXXXXXXXXXXX
XXXXXXX
MD Oppenheim & Company, P.C.
485 U.S. Highway One, Building C
P.O. Box 4100
Iselin, New Jersey 08830


Dear XXXXXXXX:

I am writing in response to your October 22 draft audit report for the Educational
Broadcasting Corporation. You have identified the following issues which I have
addressed below.

       1) Accounting System Does Not Track Costs by Federal Award -We acknowledge
           that our general ledger system accounts for costs by project and not by federal
           award. However, we would like to point out that our independent auditor has
           always expressed in writing that in their opinion EBC "has complied in all
           material respects with the requirements of OMB A-133" and has never found
           a material weakness. We recommend that in the future we will perform_
           "offline" tracking that will segregate charges for Federal awards and the cost
           sharing in separate cost centers.

       2) Bartered Goods & Services - We do have a policy for valuing bartered goods
           and services. Typically, we provide on air promotion for the particular goods
           or services and we utilize standard rates to determine the overall value of these
           goods or services. In the case cited, we received a batch of airline tickets
           for which we established an aggregate value. However, we did not
           establish a specific value for each ticket, but used an average cost. In the
           future we will establish a separate value for such items.

      3) Lobbying Costs - We inadvertently claimed lobbying costs in the indirect cost
       pool. In all future indirect cost calculations these costs will be extracted and not
       included.
      4) Fundraising Costs - We had no intention of including nor did we include
       marketing costs as an indirect cost in our calculation of indirect costs. There may
       have been a misunderstanding regarding our intentions here.

We hope we have adequately responded to these findings and look forward to your
response. Please let us know if we can provide any additional information or
clarification.



Sincerely,



XXXXXXXXXXXXXXXXXX
                                     EDUCATIONAL BROADCASTING CORPORATION
                        Details of Adjustments to Indirect Costs – Political and Legislative Lobbying Costs
                                                 For the year ended June 30, 2000


                               Date       Check     G/L Account                                                   Adjustment
        Vendor/Payee           Paid      Number       Number    Account Description     Transaction Description    Amount      Ref.

                                                                  XXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXX XXXX                 XXXXX         XXXX       XXXXXXXXXXXX           XXXXXXXXXXXXX             $ 32,000    (A)




Delineation of Adjustments by EBC Indirect Cost Proposal Line Item:

(A) Executive and Administrative Expenses: Professional Services
                                     EDUCATIONAL BROADCASTING CORPORATION
                   Details of Adjustments to Indirect Costs – Lack of Valuation of Bartered Airline Ticket Costs
                                                 For the year ended June 30, 2000


                             Date          Check         G/L Account                                                   Adjustment
        Vendor/Payee         Paid         Number           Number      Account Description   Transaction Description    Amount Ref.

XXXXXXXXXXXXXXXXX           XXXX XXXXXXXXXXXX              XXXX        XXXXXXXXXXXXX         XXXXXXXXXXXXX               $ 2,099 (A)




Delineation of Adjustments by EBC Indirect Cost Proposal Line Item:

(A) Executive and Administrative Expenses: Travel and Business Expenses
                               EDUCATIONAL BROADCASTING CORPORATION
             Details of Adjustments to Indirect Costs – Lack of Valuation of Bartered Airline Ticket Costs
                                           For the year ended June 30, 2001

                     Date    Check     G/L Account                                                        Adjustment
    Vendor/Payee     Paid   Number       Number        Account Description      Transaction Description     Amount     Ref.

                         XXXXXXX
XXXXXXXXXXXXX         XX XXXXXX           XXXX         XXXXXXXXXXXX            XXXXXXXXXXXXXXX             $ 7,303     (A)




Delineation of Adjustments by EBC Indirect Cost Proposal Line Item:

   (A) Fundraising Expenses: Governmental and External Affairs           $ XXXX
       Management & Administrative Services:
         Network Technologies                                                XXXX
         Research & Information Services                                     XXXX

             Total adjustments                                               $ 7,303
                                      EDUCATIONAL BROADCASTING CORPORATION
                         Details of Adjustments to Indirect Costs – Political and Legislative Lobbying Costs
                                                  For the year ended June 30, 2001


              Check     Check     G/L Account                                                                   Adjustment
 Vendor/Payee Date     Number       Number           Account Description          Transaction Description        Amount      Ref.

XXXXXXXXX XXX XXXXXXXX               XXXX       XXXXXXXXXXXXXXXXXXX             XXXXXXXXXXXXXXXX               $ XXXXXX      (A)
XXXXXXXXX XXX XXXXXXXX               XXXX       XXXXXXXXXXXXXXXXXXX             XXXXXXXXXXXXXXXX                 XXXXXX      (A)

                                                                                                                 $ 33,800




Delineation of Adjustments by EBC Indirect Cost Proposal Line Item:

(A) Fundraising Expenses: Governmental and External Affairs
